APPENDIX

1a
APPENDIX A
UNPUBLISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________
No. 18-4731
____________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TONY DESHAWN MCCOY,
Defendant-Appellant.
____________
Appeal from the United States District Court
for the Western District of North Carolina, at
Charlotte. Max O. Cogburn, Jr., District Judge.
(3:17-cr-00240-MOC-DSC-1)
Submitted: June 27, 2019

Decided: July 12, 2019

Before
WILKINSON,
NIEMEYER,
QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.

and

2a
Anthony Martinez, Federal Public Defender, Ann L.
Hester, Assistant Federal Public Defender, FEDERAL
DEFENDERS OF WESTERN NORTH CAROLINA,
INC., Charlotte, North Carolina, for Appellant. R.
Andrew Murray, United States Attorney, Anthony J.
Enright, Assistant United States Attorney, OFFICE
OF THE UNITED STATES ATTORNEY, Charlotte,
North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Tony Deshawn McCoy pled guilty to being a felon
in possession of a firearm, in violation of 18 U.S.C.
§ 922(g)(1) (2012). On appeal, McCoy challenges the
district court’s order denying his motion to suppress.
Finding no error, we affirm.
“When reviewing a district court’s ruling on a
motion to suppress, we review factual findings for clear
error and legal determinations de novo.” United States
v. Lull, 824 F.3d 109, 114 (4th Cir. 2016) (internal
quotation marks omitted). “[W]e must construe the
evidence in the light most favorable to the prevailing
party and give due weight to inferences drawn from
those facts by resident judges and law enforcement
officers.” Id. at 114-15 (internal quotation marks
omitted). Moreover, “we particularly defer to a district
court’s credibility determinations, for it is the role of
the district court to observe witnesses and weigh their
credibility during a pre-trial motion to suppress.”
United States v. Palmer, 820 F.3d 640, 653 (4th Cir.
2016) (brackets and internal quotation marks omitted).

3a
Under the Fourth Amendment, “[t]o justify a pat
down of the driver or a passenger during a traffic stop
. . . the police must harbor reasonable suspicion that
the person subjected to the frisk is armed and
dangerous.” Arizona v. Johnson, 555 U.S. 323, 327
(2009). The reasonable suspicion standard requires an
objective inquiry into “whether a reasonably prudent
man in the circumstances would be warranted in the
belief that his safety or that of others was in danger.”
United States v. George, 732 F.3d 296, 299 (4th Cir.
2013) (internal quotation marks omitted). We measure
reasonable suspicion against the totality of the
circumstances and “will not find reasonable suspicion
lacking based merely on a piecemeal refutation of each
individual fact and inference.” Id. at 299-300 (internal
quotation marks omitted).
[I]n connection with a lawful traffic stop of
an automobile, when the officer has a
reasonable suspicion that illegal drugs are in
the vehicle, the officer may, in the absence of
factors allaying his safety concerns, order the
occupants out of the vehicle and pat them down
briefly for weapons to ensure the officer’s
safety and the safety of others.

United States v. Sakyi, 160 F.3d 164, 169 (4th Cir.
1998). In Sakyi, we recognized that “[t]he indisputable
nexus between drugs and guns presumptively creates a
reasonable suspicion of danger to the officer.” Id.
McCoy argues that there were several facts present
that demonstrated he was not dangerous—he had a
valid driver’s license, there was no evidence that the
traffic stop occurred in a high-crime area, the officer
left him in the car while running the background check

4a
after smelling the marijuana, he was cooperative, and
the officer handcuffed him while conducting the pat
down for the marijuana. However, construing the
evidence in the light most favorable to the government
as the prevailing party below, we conclude that these
facts do not overcome the presumption of danger. We
have emphasized that reasonable suspicion exists to
frisk when an “officer reasonably suspect[s] that the
person is armed and therefore dangerous.” United
States v. Robinson, 846 F.3d 694, 700 (4th Cir. 2017)
(en banc) (emphasis omitted). The facts identified by
McCoy do not negate the core logic behind Sakyi—that
a person carrying controlled substances is likely
armed. 160 F.3d at 169. Moreover, the facts cited by
McCoy do not necessarily lead to the conclusion that he
was not a threat to the officers’ safety. See United
States v. Shakir, 616 F.3d 315, 321 (3d Cir. 2010)
(recognizing handcuffs do not guarantee suspect is
unable to reach for weapon); Sakyi, 160 F.3d at 170
(noting defendant’s “conduct was not suspicious” when
officer conducted frisk).
McCoy also asks us to overrule Sakyi, primarily on
the grounds that a majority of states have legalized
some form of marijuana use and that some courts have
rejected Sakyi.* However, “one panel cannot overrule a

*

McCoy also challenges the initial stop of his vehicle,
claiming that the officers’ pretextual stop violated the Fourth
Amendment. However, McCoy concedes that this argument is
foreclosed by the Supreme Court’s decision in Whren v. United
States, 517 U.S. 806, 813 (1996) (holding that, upon observing
traffic violation, officer may stop vehicle regardless of his
subjective motivations, “as long as the circumstances, viewed
objectively, justify that action” (internal quotation marks
omitted)). We are bound to follow Supreme Court precedent. Stop

5a
decision issued by another panel.” United States v.
Williams, 808 F.3d 253, 261 (4th Cir. 2015) (internal
quotation marks omitted). Moreover, we rejected a
similar argument in Robinson, based on the state’s
legalization of firearm possession. 846 F.3d at 696
(“The danger justifying a protective frisk arises from
the combination of a forced police encounter and the
presence of a weapon, not from any illegality of the
weapon’s possession.”).
Accordingly, we affirm the district court’s order.
We dispense with oral argument because the facts and
legal contentions are adequately presented in the
materials before this court and argument would not
aid the decisional process.

AFFIRMED

Reckless Econ. Instability Caused by Democrats v. Fed. Election
Comm’n, 814 F.3d 221, 230-31 (4th Cir. 2016).

6a
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
DOCKET NO. 3:17-cr-00240-MOC-DSC
UNITED STATES OF AMERICA, )
)
Vs.
)
) ORDER
TONY DESHAWN MCCOY,
)
)
Defendant.
)
THIS MATTER is before the Court on defendant’s
Motion to Suppress. Having considered defendant’s
motion and conducted an evidentiary hearing, the
Court enters the following findings, conclusions, and
Order.
FINDINGS AND CONCLUSIONS
I.

Background

The credible testimony at the hearing revealed the
following information. Officer Caleb Skipper and
Officer Brandon Sinnot both testified as to the events
leading up to the stop of defendant, the search of his
person, the discovery of the firearm, and defendant’s
arrest.
That testimony revealed that on November 4, 2016,
Officers Skipper and Sinnot of the CharlotteMecklenburg Police Department (“CMPD”) Metro
Crime Reduction Unit were riding as a two-man unit
in a marked CMPD vehicle. Officers Skipper and
Sinnot were parked near the intersection of W. 28th

7a
Street and Bancroft Street in Charlotte, N.C. At
approximately 1:10pm, the Officers observed a silver
Buick traveling with a cracked front windshield, a
license plate they believed was invalid or had faded
numbers, and the driver was not wearing a seatbelt.
Based on these observations, the Officers initiated a
traffic stop of the silver Buick. Both Officers then
activated their respective body cameras.
Once the silver Buick stopped, Officer Skipper
approached the driver’s side of the vehicle. Officer
Skipper observed that the driver (later identified as
the Defendant Tony Deshawn McCoy) had both hands
on the steering wheel and the windows were rolled up.
As Officer Skipper approached, the Defendant lifted
his right hand from the steering wheel and motioned
for Officer Skipper to open the driver’s side door.
Officer Skipper then opened the driver’s side door to
communicate with the Defendant. Officer Skipper
collected the Defendant’s driver’s license and a
purchase receipt for the vehicle. The Defendant
advised Officer Skipper that the Defendant’s mother
had recently purchased the vehicle. When Officer
Skipper opened the driver’s side door to communicate
with the Defendant, he immediately smelled an odor of
marijuana coming from inside the vehicle.
While Officer Skipper was communicating with the
Defendant, Officer Sinnot approached the passenger
side door of the silver Buick. As Officer Sinnot
approached the vehicle, he began communicating with
a female seated in the passenger seat. The passenger
side window was partially down and Officer Sinnot
smelled an odor of marijuana coming from inside the
vehicle.

8a
After collecting the Defendant’s information,
Officer Skipper walked back to the CMPD vehicle.
While walking back to the CMPD vehicle, Officer
Skipper signaled to Officer Sinnot that he detected an
odor of marijuana by tapping on his nose. Officer
Skipper then checked for any outstanding warrants
and ran the vehicle identification number through the
Department of Motor Vehicles database. The search
revealed that the Defendant had a valid driver’s
license and no outstanding warrants. A search of the
National Crime Information Center (“NCIC”) database
revealed the Defendant’s criminal history, which
included two convictions for Robbery with a Dangerous
Weapon, among others.
Officer Skipper then approached the silver Buick a
second time to return the Defendant’s driver’s license
and purchase receipt and to address the smell of
marijuana. Officer Skipper asked the Defendant to
step out of the vehicle. Once the Defendant stepped out
of the vehicle, the Defendant admitted that he had
marijuana in his possession. Officer Skipper then
advised the Defendant that he had already detected an
odor of marijuana.
Officer Skipper then placed the Defendant in
handcuffs and conducted a brief pat down of the
Defendant’s person. Officer Skipper retrieved the
marijuana from the Defendant’s front left pants
pocket. The marijuana was packaged in six
individually packaged baggies inside one larger clear
baggy. As Officer Skipper continued the pat down, he
felt a hard object concealed in the Defendant’s front
waistband. Officer Skipper asked the Defendant what
the object was and the Defendant replied that the
object was a “gun.” Officer Skipper then retrieved the

9a
firearm—a Smith & Wesson Revolver, .38 Special. The
Defendant was then placed under arrest.
The Officers then conducted a search of the vehicle
and located a digital scale in the glove compartment.
The search also revealed an additional baggy of
marijuana located in the handbag belonging to the
female passenger. The Defendant advised the Officers
that the marijuana found in the handbag belonged to
him, not the female passenger.
On August 15, 2017, a grand jury returned a onecount indictment against the Defendant charging him
with possession of a firearm by a convicted felon in
violation of 18 U.S.C. § 922(g)(1). Indictment (#1).
II. The Motion to Suppress
In moving to suppress, defendant contends that
Officer Skipper’s stop of his vehicle was unreasonable
and unsupported by a reasonable articulable suspicion.
Further, defendant contends that Officer Skipper
failed to harbor any reasonable articulable suspicion
that defendant was either armed or dangerous before
he conducted the frisk.
III. Discussion
A traffic stop constitutes a “seizure” under the
Fourth Amendment and is subject to review for
reasonableness. United States v. Williams, 808 F.3d
238, 245 (4th Cir. 2015). To be constitutional, a traffic
stop must be reasonable under the Fourth
Amendment, Whren v. United States, 517 U.S. 806,
810 (1996), making those stops subject to the standard
articulated by the Supreme Court in Terry v. Ohio, 392
U.S. 1 (1968). “Temporary detention of individuals
during the stop of an automobile by the police, even if

10a
only for a brief period and for a limited purpose,
constitutes a ‘seizure’” under the Fourth Amendment
to the United States Constitution. Whren, 517 U.S. at
809 To satisfy the reasonableness requirements for an
investigative detention, a traffic stop must be
legitimate at its inception, and the officers’ actions
during the stop must, thereafter, be “reasonably
related in scope” to the basis for the stop. Williams,
supra. Based on the evidence presented at the
suppression hearing, which included officer body cam
footage, the Court answers both questions in the
affirmative.
A. Whether the Stop was Legitimate at Its
Inception
In determining whether a stop is reasonable under
Terry, this Court first asks whether the stop was
“legitimate at its inception.” United States v. Hill, 852
F.3d 377, 381 (4th Cir. 2017). Here, defendant argued
that the initial stop was not reasonable because the
offenses upon which the stop were predicated were
mere infractions of North Carolina law and were a
pretext for looking for greater offenses, such as gun
and drug violations. An officer’s initial “decision to stop
an automobile is reasonable where the police have
probable cause to believe that a traffic violation has
occurred.” Whren, 517 U.S. at 810. The officer’s
subjective motivation in making the stop is
unimportant; it only matters whether the basis for the
stop was objectively reasonable. Whren, 517 U.S. at
813.
The Court has, as promised at the conclusion of the
hearing, given close consideration to defendant’s
argument that the stop of his vehicle was pretextual.

11a
While Whren clearly forecloses the subjective analysis
suggested by defendant, the Court believes that
consideration of the case law leading up to Whren will
add some clarity. Prior to Whren, there was a split
among the federal circuit courts in considering
whether investigatory stops were improperly
pretextual: some circuits applied a subjective test,
while others applied an objective one. Before Whren,
the Eleventh Circuit found that
in determining when an investigatory stop is
unreasonably pretextual, the proper inquiry ...
is not whether the officer could validly have
made the stop but whether under the same
circumstances a reasonable officer would have
made the stop in the absence of the invalid
purpose.

United States v. Valdez, 931 F.2d 1448, 1450 (11th Cir.
1991) (citation and corresponding quotation marks
omitted). The Tenth Circuit held that a stop is
“unreasonable not because the officer secretly hope[s]
to find evidence of a greater offense, but because it [i]s
clear that an officer would have been uninterested in
pursuing the lesser offense absent that hope.” United
States v. Guzman, 864 F.2d 1512, 1517 (10th Cir.
1988) (citation and corresponding quotation marks
omitted). At the hearing, defendant’s argument
followed closely the reasoning of the Guzman court.
While the reasoning of Guzman was appealing as it
touched on concepts of fairness and prevention of
arbitrary use of policing authority, that method of
subjective analysis was soundly rejected by the Fourth
Circuit, holding as follows:

12a
We adopt the objective test and likewise
hold that when an officer observes a traffic
offense or other unlawful conduct, he or she is
justified in stopping the vehicle under the
Fourth Amendment. Such a limited detention
does not become “unreasonable merely
because the officer has intuitive suspicions
that the occupants of the car are engaged in
some sort of criminal activity.” Cummins, 920
F.2d at 499–501 (noting that the officer
testified he probably would not have stopped
the car if the defendant and his passenger had
not continued glancing at him and behaving
suspiciously).
Although we share the concerns,
expressed by the Tenth and Eleventh Circuits
[in Guzman and Valdez ], of the arbitrary
exercise of police powers, we conclude that the
objective test presents the most principled
basis upon which to analyze the validity of
investigative stops. We further conclude that
the test is most in keeping with the repeated
admonitions of the Supreme Court that
Fourth Amendment violations turn “on an
objective assessment of the officer’s actions in
light of the facts and circumstances
confronting him at the time . . . and not on the
officer’s actual state of mind at the time the
challenged action was taken.” Maryland v.
Macon, 472 U.S. 463, 470 (1985) (quoting Scott
v. United States, 436 U.S. 128, 136 (1978));
see United States v. Villamonte–Marquez, 462
U.S. 579 (1983).

13a

United States v. Hassan El, 5 F.3d 726, 730-731 (4th
Cir. 1993). The Fourth Circuit’s and other circuits’
objective approach was soon thereafter adopted as the
appropriate approach by the Supreme Court in Whren,
supra.
Here, the evidence presented at the hearing shows
that the vehicle stop was supported by probable cause.
The fact that the traffic offenses were infractions or
that the officers were looking for more serious offenses
is of no consequence under Whren. While it turned out
that the tag turned out to be valid, that later
discovered fact did nothing to diminish the fact that
the officers had probable cause to initiate the traffic
stop as they reasonably believed there was a problem
with the tag, that the windshield was broken, and that
defendant was not wearing a seatbelt. The Court found
the officers’ testimony and evidence presented,
including body cam footage, to be highly credible and
informative. Thus, the stop was legitimate at its
inception.
B. The Scope of the Officers’ Action After the
Stop
The next issue is whether “the officer’s actions
during the seizure were reasonably related in scope to
the basis for the traffic stop.” Williams, 808 F.3d at 245
(internal quotation marks omitted). The credible
evidence presented at the hearing showed that when
the vehicle was stopped and Officer Skipper made his
initial approach and engaged the driver, he detected
the odor of marijuana coming from the vehicle. He
testified that the odor he smelled was not that of
burning marijuana, but of unused marijuana. After
going back to the patrol car to run defendant’s driver’s

14a
license and registration information, he discovered
defendant was a felon. Officer Skipper then returned to
the car to return the defendant’s driver’s license and
purchase receipt and to address the smell of
marijuana. Officer Skipper asked the Defendant to
step out of the vehicle. Once the Defendant stepped out
of the vehicle, the Defendant admitted that he had
marijuana in pants pocket, and Officer Skipper then
advised the Defendant that he had already detected an
odor of marijuana. Officer Skipper then placed the
Defendant in handcuffs and conducted a brief pat down
of the Defendant’s person. Officer Skipper retrieved
the marijuana from the Defendant’s front left pants
pocket. The marijuana was packaged in six
individually packaged baggies inside one larger clear
baggy. Immediately after retrieving the marijuana,
Officer Skipper frisked defendant and found a hard
object in defendant’s waist band, which defendant
identified as a hand gun. Officer Skipper then removed
the weapon. Defendant has moved to suppress the
firearm discovered on his person pursuant to the frisk,
arguing that such discovery exceeded the permissible
scope of the stop.
If an officer smells the odor of marijuana in
circumstances where the officer can localize its source
to a person, the officer has probable cause to believe
that the person has committed or is committing the
crime of possession of marijuana. United States v.
Humphries, 372 F.3d 653, 659 (4th Cir. 2004). Further,
admission to the possession of an illegal drug can
provide a law enforcement officer with probable cause
to arrest and a lawful basis to search the arrestee.
United States v. Day, 591 F.3d 679, 696 (4th Cir.
2010). During a traffic stop, officers may also require a

15a
driver to exit a vehicle based on the suspicion
justifying the traffic stop itself. Maryland v. Wilson,
519 U.S. 408, 415 (1997). A brief pat down is permitted
“when the officer perceive[s] an appropriate level of
suspicion of criminal activity and apprehension of
danger.” United States v. Sakyi, 160 F.3d 164, 169 (4th
Cir. 1998). When determining whether an officer had
reasonable suspicion to conduct a frisk, a court must
consider the totality of the circumstances. United
States v. Sprinkle, 106 F.3d 613, 618 (4th Cir. 1997).
An officer may conduct a protective frisk of a car’s
driver or passenger if he or she “harbor[s] reasonable
suspicion that the person subjected to the frisk is
armed and dangerous.” Arizona v. Johnson, 555 U.S.
323, 326 (2009). “The officer need not be absolutely
certain that the individual is armed; the issue is
whether a reasonably prudent man in the
circumstances would be warranted in the belief that
his safety or that of others was in danger.” Terry, 392
U.S. at 27. “The reasonable suspicion standard is an
objective one, and the officer’s subjective state of mind
is not considered.” United States v. George, 732 F.3d
296, 299 (4th Cir. 2013) (citing United States v. Powell,
666 F.3d 180, 186 (4th Cir. 2011)). The Fourth
Amendment does not “require . . . police officers [to]
take unnecessary risks in the performance of their
duties.” Terry, 392 U.S. at 23. The danger justifying a
protective frisk arises from the combination of a forced
police encounter and the possible presence of a
weapon. See Adams v. Williams, 407 U.S. 143, 146
(1972); Michigan v. Long, 463 U.S. 1032, 1052 n.16
(1983).
In finding that the frisk leading to the discovery of
the firearm was lawful, the Court has considered all

16a
the circumstances of the encounter and determined
that Officer Skipper had a particularized and objective
basis for believing that the detained suspect might be
armed and dangerous. United States v. Arvizu, 534
U.S. 266, 273 (2002). “A host of factors can contribute
to a basis for reasonable suspicion, including the
context of the stop, the crime rate in the area, and the
nervous or evasive behavior of the suspect.” George,
732 F.3d at 299. While the both officers testified that
defendant was cooperative, that testimony also
revealed that: from his check of the driver’s license he
knew that defendant was a felon; he smelled
marijuana upon the initial encounter; defendant
admitted to being in possession of marijuana when he
was returning the license and registration document;
and he had just discovered marijuana in defendant’s
pants pocket.
While a mere traffic infraction and knowledge that
a person has a criminal record is not enough to give
rise to a reasonable suspicion that a defendant is
armed and dangerous, Powell, 666 F.3d at 189, the
frisk of defendant was immediately preceded by Officer
Skipper’s discovery of marijuana in defendant’s pants
pocket. Discovery of a controlled substance supports
the frisk for officer safety as the Fourth Circuit has
held that the presence of drugs permits a reasonable
inference of the presence of firearms. United States v.
Sullivan, 455 F.3d 248, 260 (4th Cir.2006) (recognizing
the “unfortunate reality that drugs and guns all too
often go hand in hand”) (citation omitted); United
States v. Stanfield, 109 F.3d 976, 984 (4th Cir. 1997)
(“As we have often noted, where there are drugs, there
are almost always guns.”); United States v. Perrin, 45
F.3d 869, 873 (4th Cir. 1995) (finding reasonable an

17a
officer’s belief that a person selling drugs may be
carrying a weapon for protection); and United States v.
Brown, 398 Fed. Appx. 865, 868 (4th Cir. 2010) (“This
court has recognized that the presence of drugs
permits the inference of the presence of firearms.”).
Thus, Officer Skipper’s frisk which lead to the
discovery of the gun, which immediately followed the
discovery of marijuana in defendant’s pants pocket, is
supported by objective and particularized facts
sufficient to give rise to a reasonable suspicion that
defendant was armed and dangerous.
Finally, the Court concludes that the investigation
related to the marijuana and discovery of the firearm
did not impermissibly prolong the encounter on the
traffic infractions. Officers may engage in other
investigative techniques unrelated to the underlying
traffic infraction or officer safety while diligently
pursuing the purpose of the traffic stop. Rodriguez v.
United States, ___U.S.___, 135 S. Ct. 1609, 1614-15
(2015). So long as the collateral investigation does not
prolong the encounter, such activity is permissible. Id.
The credible evidence of record indicates that Officer
Skipper smelled marijuana upon his initial encounter
with defendant and it was defendant who volunteered
that he had marijuana in his possession when Officer
Skipper was returning his license and registration
documents. Indeed, the body cam footage fully
supports that testimony and has shown clearly that
the
marijuana
investigation
was
conducted
simultaneously with the investigation of the traffic
infractions. Thus, the discovery of the firearm and
actions leading up to that discovery were reasonably
related in scope to the basis for the traffic stop.
Williams, 808 F.3d at 245.

18a
ORDER
IT IS, THEREFORE, ORDERED that defendant’s
Motion to Suppress (#12) is DENIED.
Signed: March 2, 2018

/s/ Max O. Cogburn Jr.
Max O. Cogburn Jr.
United States District Judge

19a
APPENDIX C
FILED: August 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
____________
No. 18-4731
(3:17-cr-00240-MOC-DSC-1)
____________
UNITED STATES OF AMERICA
Plaintiff-Appellee
v.
TONY DESHAWN MCCOY
Defendant-Appellant
____________
ORDER
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under Fed.
R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

